fj
vfc--

-«

x\

(-:.

A,

f,

r'' r“:'' r Ar P\ n

u) v

No.

fi

Supreme Go'jrt, US.
FILED

j
j

m 2 3 ?s:

i

OFFICE Ot- THE CLERX__!

IN THE
SUPREMRE COURT OF THE UNITED STATES

JOSE ZAVALA-MARTI,
PETITIONER,
v.
UNITED STATES OF AMERICA,
RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

PROCEEDING PRO SE
JOSE ZAVALA MARTI
REG. NO. 32031-069
FCIJESUP
FEDERAL CORRECTIONAL INSTITUTION
2680 301 SOUTH
JESUP, GA 31599

DATED:

rj

TABLE OF CONENTS
QUESTIONS PRESENTED

111

LIST OF PARTIES

IV

INDIX TO APPENDICE

v

TABLE OF AUTHORITIES

vi-x

OPINION BELOW

Xl-Xll

JURISDICTION

Xll

CONSTITUTIONAL AND STATURY PROVISIONS INVOVLED

X11-X1V

STATEMENT OF THE CASE

1-4

REASONS FOR GRANTING THE WRIT

4-27

CONCLUSION

27

ii

OUESTION(S) PRESENTED

I.

WHETHER ZAVLA MADE A SUBSTANTIAL SHOWING OF A
DENIAL OF HIS RIGHT TO DUE PROCESS OF LAW AS SECURED
UNDER FIFTH AMENDMENT OF THE UNITED STASTES
CONSTITUTION ENCOURAGING THE FIRST CIRCUIT COURT OF
APPEALS TO PROCEED FURTHER AND GRANT HIM THE COA.

II.

WHETHER THE FIFTH AMENDMENT PROTECTIONS EXTENDS TO
HABEAS CORPUS PETITIONER UNDER THE UNITED STATES
CONSTITUTION TO A DEFENDANT WHO PLEAD GUILTY DURING
TRIAL AND FILED HIS CLAIM PURSUANT 28 U.S.C. S 2255
PROCEEDINGS AFTER EXHAUSTING HIS DIRECT APPEAL AND
LEARNING THAT HIS CO-DEFENDANTS CONVICTION WAS
OVERTURNED AND ORDERED A NEW TRIAL DUE TO THE
GOVERNMENT SUPPRESSION OF BRADY MATERIAL DURING
THEIR THE PRE-TRIAL AND TRIAL PROCESS REQUIRES EQUAL
APPLICATION OF JUSTICE TO ALL THE DEFENDANTS WHOM
DECIDED TO STAND TRIAL REGARDLESS THE LEGAL STAGE
WHERE THE CLAIM WAS FIRSTLY RAISED UNDER DOCTRINE OF
BRADY AND THIS COURT STARE DECICES CASES.

III.

WHETHER DISTRICT COURT’S DECISION TO SUA SPONTE
DISMISS HABEAS CORPS PETITIONS AFTER REFERING THE
PETITIONS TO A MAGISTRATE JUDGE FOR 2255 PROCEEDINGS
AND REPORT AND RECOMMENDATIONS VIOLATES THE
FEDERAL MAGISTRATE ACT AND THE RULES GOVERNING
2255 PROCEEDINGS TO HAVE PARTIES CONTROVERTED FACTS
AND ISSUES BE HEARD AND RESOLVED THROUGH
EVIDENTIARY HEARINGS.

iii

LIST OF PARTIES

Solicitor General
Counsel of Record
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

United States Attorney Office
Torre Chardon, Suite 1201,
350 Carlos Chardon Street
San Juan, PR, 00918.

iv

INDEX TO APPENDICES
APPENDIX A

28 U.S.C. 2255 APPLICATION

APPENDIX B

MEMORANDUM OF LAW UNDER 28 U.S.C. 2255

APPENDIX C

MOTION SUPLEMENTING 2255 PETITION

APPENDIX D

GOVERNMENT’S OPPOSITION 28 U.S.C. 2255

APPENDIX E

MOVANT’S REPLY TO GOVERNMENT OPPOSITION

APPENDIX F

DISTRICT COURT DECISION AND OREDER

APPENDIX G

CERTIFICATE OF APPEALABILITY

APPENDIX H

COURT OF APPEALS COA DENIAL

V

TABLE OF AUTHORITIES
CASES:
Supreme Court
Barefoot v. Estelle, 463 U.S. 880,103 S.Ct. 3383 (1983)
Bousely v. United States 523 U.S. 614 (1998)
Brady v. Maryland, 373 U.S. 83 (1963)
Coleman v. Thompson, 501 U.S. 722 (1991)
Foster v. Chatman, 136 S. Ct. 1737 (2016)
Giglio v. United States, 405 U.S. 150 (1972)
Hill v. Lockhart, 474 U.S. 52, 106 S.Ct. 366 (1985).
Hill v. United States, 368 U.S. 424 (1962)
Hohn v. United States, 524 U.S. 236,118 S.Ct. 1969 (1998)
Machibroda v. United States, 368 U.S. 487, 82 S.Ct. 510 (1962).
McCarthy v. Bronson, 500 U.S. 136 (1991)
McCarthy v. United States, 394 U.S. 459, 89 S.Ct. 1166 (1969)
Miller-El v. Cockrell, 537 U.S. 322, 123 S.Ct. 1029 (2003)
Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595 (2000)
Smith v. O’Grady, 312 US 329, 61 S.Ct. 572 (1941)
vi

Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052 (1984)
Thomas v. Am, 474 U.S. 140 (1985)
United States v. Agurs, 427 U.S. 97 (1976)
United States v. Bagley, 473 U.S. 667 (1985)
United States v. Frady, 456 U.S. 152 (1982)
United States v. Ruiz, 536 U.S. 622 (2002)
Waley v. Johnston 316 U.S. 101(1942)
Court of Appeals
Allen v. Attorney General of State of Maine 80 F.3d 569 (1st Cir. 1996)
Bucci v. United States, 662 F.3d 18 (1st Cir. 2011)
Cepulonis v. Ponte, 699 F.2d 573 (1st Cir.1983)
Conley v. United States, 415 F.3d 183 (1st Cir.2005)
David v. United States, 134 F.3d 470, 474 (1st Cir. 1998)
Dawson v. Marshall, 561 F.3d 930 (9th Cir. 2009)
Ferrara v. United States, 456 F.3d 278 (1st Cir. 2006)
Hinman v. McCarthy, 676 F.2d 343 (9th Cir. 1982)
Matthew v. Johnson, 201 F.3d 353 (5th Cir. 2000)
Matthew v. Johnson, 201 F.3d 353 (5th Cir.2000)
Miller v. Angliker, 848 F.2d 1312 (2d Cir.1988)
Piercy v. Black, 801 F.2d 1075 (8th Cir.1986)
vii

Robinson v. Berman, 594 F.2d 1 (1st Cir.1979)
Ruiz v. United States, 339 F.3d 39 (1st Cir.2003)
Tse v. United States, 290 F.3d 462 (1st Cir. 2002)
United States v. Keefe, 621 F.2d 17 (1st Cir. 1980)
United States v. Bermudez-Torres, 787 F.3d 1 (1st Cir. 2015)
United States v. Avellino, 136 F.3d 249 (2d Cir. 1998)
United States v. Colon-Rosario, 921 F.3d 311 (1st Cir. 2019)
United States v. Crosby, 714 F.2d 185 (1st Cir. 1983)
United States v. Cunan, 152 F.3d 29 (1st Cir. 1998)
United States v. Fisher, 2013 U.S. App. LEXIS 6575, 16-17 (4th Cir. 2013)
United States v. Flores-Rivera, 787 F.3d 1 (1st Cir. 2015)
United States v. Flores-Rivera, 787 F.3d 1 (1st Cir. 2015)
United States v. Garcia, 401 F.3d 1008 (9th Cir. 2005)
United States v. Gonzalez-Vazquez, 34 F.3d 19, 23 (1st Cir.1994)
United States v. Isom, 85 F.3d 831 (1st Cir.1996).
United States v. Joselyn, 206 F.3d 144 (1st Cir. 2000)
United States v. Martinez-Medina, 279 F.3d 105 (1st Cir. 2002)
United States v. Parrilla-Tirado, 22 F.3d 373 (1st Cir.1994)
United States v. Pellerito, 878 F.2d 1535 (1st Cir.1989)
United States v. Ramos, 810 F.2d 308 (1st Cir.1987)
viii

United States v. Reyna-Tapia, 328 F.3d 1114 (9th Cir. 2003)
United States v. Walters, 269 F.3d 1207 (10th Cir.2001)
United States v. Webb, 433 F.2d 400 (1st Cir. 1970)
White v. United States, 858 F.2d 416 (8th Cir.1988)
STATUTES AND RULES:
18U.S.C. 2
18U.S.C. 201(b)(2)
18U.S.C. 201(b)(3)
18U.S.C. 924
18U.S.C. 924 (c)(1)(A)
18U.S.C. 924 (o)
18U.S.C. 1512
18U.S.C. 1512(b)(1)
18U.S.C. 1512(b)(1)
18U.S.C. 1512(k)
21 U.S.C. 841
21 U.S.C. 841
21 U.S.C. 841(a)(1)
21 U.S.C. 841 (b)( 1)(A)(iii)
21 U.S.C. 846
ix

21 U.S.C. 860
28 U.S.C.A. § 636
28 U.S.C. § 2253(c)(2)
28 U.S.C. § 2255
Rules Governing § 2255 Proceedings
Rule 6, Discovery.
Rule 7. Expanding the Record
Rule 8. Evidentiary Hearing
First Cir. Loc. R. 22.1(a).

OPINION BELOW
The Court of Appeals for the First Circuit did not issue an opinion in this
case. The Court of Appeals simply denied the request for Certificate of
Appealability for the following reasons.
Petitioner Jose Daniel Zavala Marti seeks a certificate of appealability
("COA") in relation to the district court's denial of his motion pursuant to 28
U.S.C. §2255. After careful consideration of the papers and relevant portions of the
record, we conclude that the district court's rejection of petitioner's claims was
neither debatable nor wrong and that petitioner, therefore, is not entitled to a COA.
See Slack v. McDaniel, 529 U.S. 473, 484 (2000) (COA standard); see also 28
U.S.C. § 2253(c) (statutory COA standard: "A certificate of appealability may
issue ... only if the applicant has made a substantial showing of the denial of a
constitutional right").
In particular, we conclude that petitioner has not demonstrated that
reasonable jurists would disagree with the district court's conclusion, made after
full consideration of an affidavit from trial counsel, that petitioner had not shown
cause and prejudice capable of excusing the procedural
default that occurred when petitioner failed to raise his claim(s) under Brady v.
Maryland, 373 U.S. 83 (1963), in a pre-sentencing motion to withdraw his guilty
xi

plea or in his original direct appeal.
Moreover, petitioner has failed to cast as debatable or wrong the district
court's conclusion that counsel was not constitutionally ineffective for failing to
press a "double counting" claim, as the potential success of such a challenge was
far from clear, and petitioner points to no binding
Case: 20-1542 Document: 00117638015 Page: 1 Date Filed: 09/04/2020 Entry ID:
6364863. Appendix H.
The opinion of the United States District Court is reported at Zavala-Marti v.
United States. 448 F. Supp. 3d 109 (D.P.R. 2020)Appendix J.
JURISDICTION
This Court jurisdiction is invoked pursuant to 28 U.S.C. § 1254(1). The
Court of Appeals order denying petitioner’s Certificate of Appealability was
entered on September 4, 2020.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Amendments to the Constitution of the United States of America
Amendment 5 Annotations
No person shall be deprived of life, liberty, or property, without due process of law.
The Federal Magistrate Act.
28 U.S.C.A. § 636 Jurisdiction, powers, and temporary assignment
xii

(b)(1) Notwithstanding any provision of law to the contrary—
(B) a judge may also designate a magistrate judge to conduct hearings, including
evidentiary hearings, and to submit to a judge of the court proposed findings of fact
and recommendations for the disposition, by a judge of the court, of any motion
except in subparagraph (A), of applications for posttrial 1 relief made by
individuals convicted of criminal offenses and of prisoner petitions challenging
conditions of confinement.
(C) the magistrate judge shall file his proposed findings and recommendations
under subparagraph
(B) with the court and a copy shall forthwith be mailed to all parties.
Within fourteen days after being served with a copy, any party may serve and file
written objections to such proposed findings and recommendations as provided by
rules of court. A judge of the court shall make a de novo determination of those
portions of the report or specified proposed findings or recommendations to which
objection is made. A judge of the court may accept, reject, or modify, in whole or
in part, the findings or recommendations made by the magistrate judge. The judge
may also receive further evidence or recommit the matter to the magistrate judge
with instructions.
CERTIFICATE OF APPEALABILITY
28 U.S.C.A. § 2253 Appeal
xiii

(a) In a habeas corpus proceeding or a proceeding under section 2255 before a
district judge, the final order shall be subject to review, on appeal, by the court of
appeals for the circuit in which the proceeding is held.
(b) There shall be no right of appeal from a final order in a proceeding to test the
validity of a warrant to remove to another district or place for commitment or trial
a person charged with a criminal offense against the United States, or to test the
validity of such person's detention pending removal proceedings.
(c)(1) Unless a circuit justice or judge issues a certificate of appealability, an
appeal may not be taken to the court of appeals from
(A) the final order in a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255.
(2) A certificate of appealability may issue under paragraph (1) only if the
applicant has made a substantial showing of the denial of a constitutional right.
(3) The certificate of appealability under paragraph (1) shall indicate which
specific issue or issues satisfy the showing required by paragraph (2).

FEDERAL HABEAS CORPUS
28 U.S.C.A. § 2255
§ 2255. Federal custody; remedies on motion attacking sentence

xiv

(a) A prisoner in custody under sentence of a court established by Act of Congress
claiming the right to be released upon the ground that the sentence was imposed in
violation of the Constitution or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that the sentence was in excess of
the maximum authorized by law, or is otherwise subject to collateral attack, may
move the court which imposed the sentence to vacate, set aside or correct the
sentence.
(b) Unless the motion and the files and records of the case conclusively show that
the prisoner is entitled to no relief, the court shall cause notice thereof to be served
upon the United States attorney, grant a prompt hearing thereon, determine the
issues and make findings of fact and conclusions of law with respect thereto. If the
court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack,
or that there has been such a denial or infringement of the constitutional rights of
the prisoner as to render the judgment vulnerable to collateral attack, the court
shall vacate and set the judgment aside and shall discharge the prisoner or
resentence him or grant a new trial or correct the sentence as may appear
appropriate.
(c) A court may entertain and determine such motion without requiring the
production of the prisoner at the hearing.
XV

(d) An appeal may be taken to the court of appeals from the order entered on the
motion as from a final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is
authorized to apply for relief by motion pursuant to this section, shall not be
entertained if it appears that the applicant has failed to apply for relief, by motion,
to the court which sentenced him, or that such court has denied him relief, unless it
also appears that the remedy by motion is inadequate or ineffective to test the
legality of his detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The
limitation period shall run from the latest of(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by governmental
action in violation of the Constitution or laws of the United States is removed, the
movant was prevented from making a motion by such governmental action;
(3) the date on which the right asserted was initially recognized by the Supreme
Court, if that right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented could have
been discovered through the exercise of due diligence.

xvi

(g) Except as provided in section 408 of the Controlled Substances Act, in all
proceedings brought under this section, and any subsequent proceedings on review,
the court may appoint counsel, except as provided by a rule promulgated by the
Supreme Court pursuant to statutory authority. Appointment of counsel under this
section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 by
a panel of the appropriate court of appeals to contain
(1) newly discovered evidence that, if proven and viewed in light of the evidence
as a whole, would be sufficient to establish by clear and convincing evidence that
no reasonable factfinder would have found the movant guilty of the offense; or
(2) a new rule of constitutional law made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable.
RULES GOVERNING § 2255 PROCEEDINGS
Rule 1, 28 U.S.C.A. foil. § 2255
Rule 1. Scope
These rules govern a motion filed in a United States district court under 28 U.S.C.
§ 2255 by:
(a) a person in custody under a judgment of that court who seeks a determination
that:
(1) the judgment violates the Constitution or laws of the United States;
xvii

(2) the court lacked jurisdiction to enter the judgment;
(3) the sentence exceeded the maximum allowed by law; or
(4) the judgment or sentence is otherwise subject to collateral review; and
(b) a person in custody under a judgment of a state court or another federal court,
and subject to future custody under a judgment of the district court, who seeks a
determination that:
(1) future custody under a judgment of the district court would violate the
Constitution or laws of the United States;
(2) the district court lacked jurisdiction to enter the judgment;
(3) the district court’s sentence exceeded the maximum allowed by law; or
(4) the district court’s judgment or sentence is otherwise subject to collateral
review.
Rule 3. Filing the Motion; Inmate Filing
(a) Where to File; Copies. An original and two copies of the motion must be filed
with the clerk.
(b) Filing and Service. The clerk must file the motion and enter it on the criminal
docket of the case in which the challenged judgment was entered. The clerk must
then deliver or serve a copy of the motion on the United States attorney in that
district, together with a notice of its filing.

xviii

(c) Time to File. The time for filing a motion is governed by 28 U.S.C. § 2255
para. 6.
(d) Inmate Filing. A paper filed by an inmate confined in an institution is timely if
deposited in the institution’s internal mailing system on or before the last day for
filing. If an institution has a system designed for legal mail, the inmate must use
that system to receive the benefit of this rule. Timely filing may be shown by a
declaration in compliance with 28 U.S.C. § 1746 or by a notarized statement, either
of which must set forth the date of deposit and state that first-class postage has
been prepaid.
Rule 4. Preliminary Review
(a) Referral to a Judge. The clerk must promptly forward the motion to the judge
who conducted the trial and imposed sentence or, if the judge who imposed
sentence was not the trial judge, to the judge who conducted the proceedings being
challenged. If the appropriate judge is not available, the clerk must forward the
motion to a judge under the court’s assignment procedure.
(b) Initial Consideration by the Judge. The judge who receives the motion must
promptly examine it. If it plainly appears from the motion, any attached exhibits,
and the record of prior proceedings that the moving party is not entitled to relief,
the judge must dismiss the motion and direct the clerk to notify the moving party.
If the motion is not dismissed, the judge must order the United States attorney to
xix

file an answer, motion, or other response within a fixed time, or to take other
action the judge may order.
Rule 5. The Answer and the Reply
(a) When Required. The respondent is not required to answer the motion unless a
judge so orders.
(b) Contents. The answer must address the allegations in the motion. In addition, it
must state whether the moving party has used any other federal remedies, including
any prior post-conviction motions under these rules or any previous rules, and
whether the moving party received an evidentiary hearing.
(c) Records of Prior Proceedings. If the answer refers to briefs or transcripts of the
prior proceedings that are not available in the court’s records, the judge must order
the government to furnish them within a reasonable time that will not unduly delay
the proceedings.
(d) Reply. The moving party may file a reply to the respondent’s answer or other
pleading. The judge must set the time to file unless the time is already set by local
rule.
Rule 6. Discovery
(a) Leave of Court Required. A judge may, for good cause, authorize a party to
conduct discovery under the Federal Rules of Criminal Procedure or Civil
Procedure, or in accordance with the practices and principles of law. If necessary
XX

for effective discovery, the judge must appoint an attorney for a moving party who
qualifies to have counsel appointed under 18 U.S.C. § 3006A.
(b) Requesting Discovery. A party requesting discovery must provide reasons for
the request. The request must also include any proposed interrogatories and
requests for admission, and must specify any requested documents.
(c) Deposition Expenses. If the government is granted leave to take a deposition,
the judge may require the government to pay the travel expenses, subsistence
expenses, and fees of the moving party’s attorney to attend the deposition.
Rule 7. Expanding the Record
(a) In General. If the motion is not dismissed, the judge may direct the parties to
expand the record by submitting additional materials relating to the motion. The
judge may require that these materials be authenticated.
(b) Types of Materials. The materials that may be required include letters predating
the filing of the motion, documents, exhibits, and answers under oath to written
interrogatories propounded by the judge. Affidavits also may be submitted and
considered as part of the record.
(c) Review by the Opposing Party. The judge must give the party against whom
the additional materials are offered an opportunity to admit or deny their
correctness.
Rule 8. Evidentiary Hearing
xxi

(a) Determining Whether to Hold a Hearing. If the motion is not dismissed, the
judge must review the answer, any transcripts and records of prior proceedings,
and any materials submitted under Rule 7 to determine whether an evidentiary
hearing is warranted.
(b) Reference to a Magistrate Judge. A judge may, under 28 U.S.C. § 636(b), refer
the motion to a magistrate judge to conduct hearings and to file proposed findings
of fact and recommendations for disposition. When they are filed, the clerk must
promptly serve copies of the proposed findings and recommendations on all
parties. Within 14 days after being served, a party may file objections as provided
by local court rule. The judge must determine de novo any proposed finding or
recommendation to which objection is made. The judge may accept, reject, or
modify any proposed finding or recommendation.
(c) Appointing Counsel; Time of Hearing. If an evidentiary hearing is warranted,
the judge must appoint an attorney to represent a moving party who qualifies to
have counsel appointed under 18 U.S.C. § 3006A. The judge must conduct the
hearing as soon as practicable after giving the attorneys adequate time to
investigate and prepare. These rules do not limit the appointment of counsel under
§ 3006A at any stage of the proceeding.
(d) Producing a Statement. Federal Rule of Criminal Procedure 26.2(a)-(d) and (f)
applies at a hearing under this rule. If a party does not comply with a Rule 26.2(a)
xxii

order to produce a witness’s statement, the court must not consider that witness’s
testimony.
Rule 10. Powers of a Magistrate Judge
A magistrate judge may perform the duties of a district judge under these rules, as
authorized by 28 U.S.C. § 636.
Rule 11. Certificate of Appealability; Time to Appeal
(a) Certificate of Appealability. The district court must issue or deny a certificate
of appealability when it enters a final order adverse to the applicant. Before
entering the final order, the court may direct the parties to submit arguments on
whether a certificate should issue. If the court issues a certificate, the court must
state the specific issue or issues that satisfy the showing required by 28 U.S.C. §
2253(c)(2). If the court denies a certificate, a party may not appeal the denial but
may seek a certificate from the court of appeals under Federal Rule of Appellate
Procedure 22. A motion to reconsider a denial does not extend the time to appeal.
(b) Time to Appeal. Federal Rule of Appellate Procedure 4(a) governs the time to
appeal an order entered under these rules. A timely notice of appeal must be filed
even if the district court issues a certificate of appealability. These rules do not
extend the time to appeal the original judgment of conviction.
Rule 12. Applicability of the Federal Rules of Civil Procedure and the Federal
Rules of Criminal Procedure
xxiii

The Federal Rules of Civil Procedure and the Federal Rules of Criminal Procedure,
to the extent that they are not inconsistent with any statutory provisions or these
rules, may be applied to a proceeding under these rules.

xxiv

STATEMENT OF THE CASE
I.

PROCEDURAL HISTORY.
Jose Manuel Zavala Marti was charged in a Superseding Indictment

alongside 46 co-defendants in nine counts alleging that from on or about the year
2004 until the return of the superseding indictment on February 5, 2008, he
participated in a conspiracy to possess with intent to distribute 100 grams or more
of heroin, 50 grams or more of crack cocaine, 500 grams or more of cocaine, and a
measurable amount of marihuana within 1,000 feet of the Victor Berrios Public
Housing Project; or of a public school, the Rosa Costa Valdivieso Middle School
located in the Municipality of Yabucoa, P.R. (all in violation of 21 U.S.C.
841(a)(1), (b)(l)(A)(iii), 846 and 860 (count one); conspiracy to possess firearms
during said time period in furtherance of a drug trafficking crime in violation of 18
U.S.C. 924(c)(1)(A) and (o); and four substantive aiding abetting counts of
possession with intent to distribute 100 grams or more of heroin (count three), 50
grams or more of crack (count four), 500 grams or more of cocaine (count five)
and a measurable amount of marihuana (count six) in violation of 21 U.S.C. 841
(a)(1) and 18 U.S.C. 2; conspiracy to tamper with a government witness in
violation of 18 U.S.C. 1512(b)(1) and (k) (count seven); aiding and abetting to
tamper with a government witness in violation of 18 U.S.C. 1512(b)(1) and
2(count eight) and aiding and abetting to bribe a government witness in violation
l

of 18 U.S.C. 201(b)(3) and 2.(count nine) A narcotics forfeiture count requesting
10 million dollars was included, (count ten).
The case was assigned to Hon. Judge Perez-Gimenez. After the trial of the
present case had begun on October 13, 2009, Zavala-Marti entered a straight plea
on October 16, 2009. [07-cr-318 Docket 1573] The trial that was being held
pertained to counts 1-6 of the indictment since the court had severed the trial of
counts 7-9 that pertained to the obstruction of justice-witness tampering offenses.
[07-cr-318 Docket 1353] Since a straight plea was entered Zavala-Marti pled guilty
to all counts of the indictment. A pre-sentence report was prepared and
subsequently amended. [07-cr-318 Docket 2165] On 1/28/11 Zavala-Marti was
sentenced to life imprisonment. [07-cr-318 Docket 2579] Zavala-Marti filed a
timely notice of appeal and the First Circuit on 5/14/13 vacated the sentence and
remanded the case for re-sentencing before a different judge. [07-cr-318 Docket
3136] Upon remand the case was assigned to Hon. District Court Judge Francisco
Besosa. [07-cr-318 Docket 3143]

A re-sentencing hearing was held on 10/16/13

where Hon. Judge Besosa imposed 35 years imprisonment in counts one, three to
six, 20 years as to count two all concurrent one with the other; ten years in counts
seven and eight and fifteen years in count nine those concurrent one with the other
but consecutive to the 35 years imposed in counts 1-6 for a final total sentence of
50 years. (Exh. 1) Zavala-Marti filed a timely notice of appeal. [07-cr-318 Docket
2

3197] The First Circuit on 2/05/15 affirmed the 50 year sentence. [07-cr-318
Docket 3267] U.S. v. Zavala-Marti, 601 Fed. Appx. 6 (1st Cir. 2015) A Petition for
Rehearing was denied on 3/30/15. A timely Petition for a Writ of certiorari was
filed on 6/12/15, which was denied on 10/5/15. (Exh. 2)

On October 4, 2016,

Zavala filed motion pursuant to Title 28 U.S.C. 2255 to vacate, set aside or correct
sentence. [16-cv-02762 Docket 1]

On October 4, 2016, the Court referred the

2255 Petition to Magistrate Judge, the case was assigned to the Honorable
Magistrate Judge Marcos E. Lopez for a Report and Recommendation. [16-cv02762 Docket 2-3]

On November 22, 2016 Zavala filed Supplemental Motion to

submit Affirmation by trial attorney Maria H. Sandoval in support of Zavala’s
2255 Petition. [16-cv-02762 Docket 7]

On December 15, 2016 Zavala filed

motion “Providing Additional Evidence” in support of his correction of sentence
issue argument. [16-cv-02762 Docket 9] On March 1, 2017, the United States
filed its Response in Opposition as to Zavala’s 2255 application [16-cv-02762
Docket 16] On March 6, 2017 Zavala filed Motion for Leave to file Reply as to
the United States Response in Opposition Motion, and on April 5, 2017 Zavala
filed his Reply to the United States Response in Opposition Motion. [16-cv-02762
Docket 11-19]

On March 25, 2020, the Court without holding an evidentiary

hearing or waiting for the Magistrate Judge Report and Recommendation issued
Opinion and Order dismissing Zavala’s 2255 Application with prejudice and
3

entered the judgment accordingly. [16-cv-02762 Docket 20-21]

On June 10,

2020 Zavala filed in the First Circuit Court of Appeal Certificate of Appealability.
[Appeal Case No. 20-1542]

On September 4, 2020, the First Circuit Court of

Appeal denied Zavala his request for Certificate of Appealability. [Appeal Case
No. 20-1542]
REASONS FOR GRANTING THE PETITION
Zavala submits that the reasons for granting the petition for a Writ of
Certiorari rest on the principles of equal justice for all under the constitution of the
United States. In memory of the late Justice Ruth Bader Ginsburg Zavala believes
she would have approved his pleading for justice under the circumstances of his
case.
The tale of this criminal story is that Zavala was charged in a criminal
conspiracy involving multiple participants some which decided to plead guilty
prior to trial in fear of receiving a draconian sentence for exercising their right to
trial and the leaders of the organization whom decided to stand trial. The leaders
opted to stand trial because they contended since the beginning of the criminal
prosecution that the government main witness had fabricated a story against them
and even developed other witnesses to help the prosecution secure a jury guilty
verdict to save himself from criminal prosecution and severe punishment.
Unbeknownst to Zavala the government had suppressed Brady material from him
4

during the pretrial and trial process, and on the third day of trial his attorney
instructed him to plead guilty and avoid a draconian sentence since the
government’s evidence appeared to be an uphill battle which could had resulted as
it did in guilty verdict returned by the jury against his codefendants. The
government in bad faith tendered a straight guilty plea which Zavala’s attorney
advise him to accept, and he did. Eight months after Zavala had pleaded guilty the
leaders of the organization who stand trial discovered, and the government
admitted that it suppressed Brady material during the pre-trial and trial process.
Zavala’s trial attorney watched and waited Zavala’s codefendant’s Brady
suppression battle before the District Court to raise the issue if they prevailed but
declined to do so after the Court denied the relief requested by his codefendants.
At sentencing Zavala received a 50-year sentence and his trial attorney withdrew
from his representation. For reasons unknown to Zavala his Appellate lawyer did
not raise the Brady issue on direct appeal, nevertheless, it would have been
immaterial since Zavala’s trial attorney did not raised the issue at the trial court
level.

Zavala’s appeal was dismissed on other sentencing grounds, and

afterwards, the First Circuit Court of Appeal appellate ordered a new trial on
Zavala’s codefendants, after finding that the government had violated the
constitutional principles enunciated in Brady during Zavala’s and his
codefendant’s pre-trial and trial prosecution.
5

On remand the main leader of the

organization Cruz Roberto Ramos-Gonzalez who initially received a life sentence
negotiated a new 15-year sentence plea deal. See Judgment and Commitment
Order [Document 3484, 07-cr-00318-PG] And Carlos Omar Bermudez-Torres the
second leader who initially received a 50-years negotiated a new 12-year sentence
plea deal. See Judgment and Commitment Order [Document 3409, 07-cr-00318PG]

In view of the First Circuit new trial order Zavala filed Habeas Corpus in the

District Court contending that he was entitled to relief under a 2255 Petition
because his conviction and sentence were both obtained in violation of the United
States Constitution and laws because the government had obtained a guilty plea
criminal conviction after Zavala’s third day of trial in violation of the doctrine
enunciated in Brady and his due process rights as secured under the Fifth
Amendment of the United States Constitution.

The District Court rejected his

claim by finding that once Zavala plead guilty even after the third day of trial had
he surrendered any right to receive any pre-trial and trial Brady material. Thus,
failing to apply a long line of judicial precedent requiring Zavala’s guilty plea be
set aside and a order for new trial has it was done in his codefendants case on
direct appeal. The injustice in this case is that Zavala was denied equal access to
the protections of our constitution guarantees and stands executing a 50-year
sentence being a line worker in the criminal organization where it’s leaders
received new sentences of 12-15 years for the same legal reasons the District Court
6

and the First Circuit denied him the relief he sought in vindicating the violation of
his constitutional rights to due process during his pretrial and trial process.
Therefore, based on the foregoing constitutional and legal argument Zavala
is humbly asking the Supreme Court of the United States to do justice in his case
has the late Justice Ginsburg did for many years in the quest of justice for all in this
Country.
FIRST ISSUE
I.

WHETHER ZAVLA MADE A SUBSTANTIAL SHOWING OF A
DENIAL OF HIS RIGHT TO DUE PROCESS OF LAW AS
SECURED UNDER FIFTH AMENDMENT OF THE UNITED
STASTES CONSTITUTION ENCOURAGING THE FIRST
CIRCUIT COURT OF APPEALS TO PROCEED FURTHER AND
GRANT HIM THE COA.

A. THE LAW.
In order to obtain a COA a petitioner must make “a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Tse v. United
States, 290 F.3d 462, 465 (1st Cir. 2002) In determining whether to grant a COA,
the Court of Appeals “look[s] to the District Court's application of AEDPA to
petitioner's constitutional claims and ask[s] whether that resolution was debatable
amongst jurists of reason.” Miller-El v. Cockrell, 537 U.S. 322, 336, 123 S.Ct.
1029, 1039, 154 L.Ed.2d 931 (2003). Miller-El explained what is required. As
mandated by federal statute, a prisoner seeking a writ of habeas corpus has no
7

absolute entitlement to appeal a district court's denial of his petition. 28 U.S.C. §
2253. Before an appeal may be entertained, a prisoner who was denied habeas
relief in the district court must first seek and obtain a COA from a circuit justice or
judge. This is a jurisdictional prerequisite because the COA statute mandates that
“[ujnless a circuit justice or judge issues a certificate of appealability, an appeal
may not be taken to the court of appeals....” § 2253(c)(1). As a result, until a COA
has been issued federal courts of appeal lack jurisdiction to rule on the merits of
appeals from habeas petitioners. A COA will issue only if the requirements of §
2253 have been satisfied. “The COA statute establishes procedural rules and
requires a threshold inquiry into whether the circuit court may entertain an appeal.”
Slack v. McDaniel, 529 U.S. 473,482, 120 S.Ct. 1595 (2000); Hohn v. United
States, 524 U.S. 236, 248, 118 S.Ct. 1969 (1998). Section 2253(c) permits the
issuance of a COA only where a petitioner has made a “substantial showing of the
denial of a constitutional right.” In Slack, supra, at 483, 120 S.Ct. 1595, the Court
recognized that Congress codified the prior judicial certificate of probable cause
(“CPC”) standard, announced in Barefoot v. Estelle, 463 U.S. 880, 103 S.Ct.
3383, 77 L.Ed.2d 1090 (1983), for determining what constitutes the requisite
showing. Under the controlling standard, a petitioner must “sho[w] that reasonable
jurists could debate whether (or, for that matter, agree that) the petition should
have been resolved in a different manner or that the issues presented were
8

‘adequate to deserve encouragement to proceed further.”’ 529 U.S., at 484, 120
S.Ct. 1595 (quoting Barefoot, supra, at 893, n. 4, 103 S.Ct. 3383).
Zavala submits that for the reasons articulated in his Certificate of
Appealability the First Circuit Court of Appeals should have granted his COA and
this Honorable Court should issue a COA accordingly.
SECOND ISSUE
II.

WHETHER THE FIFTH AMENDMENT PROTECTIONS EXTENDS
TO HABEAS CORPUS PETITIONER UNDER THE UNITED
STATES CONSTITUTION TO A DEFENDANT WHO PLEAD
GUILTY DURING TRIAL AND FILED HIS CLAIM PURSUANT 28
U.S.C. S 2255 PROCEEDINGS AFTER EXHAUSTING HIS DIRECT
LEARNING THAT HIS CO-DEFENDANTS
APPEAL AND
CONVICTION WAS OVERTURNED AND ORDERED A NEW
TRIAL DUE TO THE GOVERNMENT SUPPRESSION OF BRADY
MATERIAL DURING THEIR THE PRE-TRIAL AND TRIAL
PROCESS REQUIRES EQUAL APPLICATION OF JUSTICE TO
ALL THE DEFENDANTS WHOM DECIDED TO STAND TRIAL
REGARDLESS THE LEGAL STAGE WHERE THE CLAIM WAS
FIRSTLY RAISED UNDER DOCTRINE OF BRADY AND THIS
COURT STARE DECICES CASES.

A. THE LAW DUE PROCESS VIOLATION PURSUANT TO BRADY.
Zavala submitted in his 2255 memorandum of law and COA that the
government violated his due process rights as secured under the Fifth Amendment,
when it concealed and destroyed impeachment material evidence favorable to his
defense, causing his trial lawyer to ineffectively advise him to enter straight guilty
plea at the third day of trial, which resulted in a sentence of 50 years, entered
9

involuntarily, unintelligently, and unknowing that the government had committed
misconduct and misrepresentations during the trial process. Has relief Zavala
requested the First Circuit to grant his COA because the District Court erred in not
having his plea set aside, under the post sentence reasonable probability standard
application, because had the government provided Zavala the Brady material
during the pretrial or trial process, he would have insisted in ending his trial, would
have regardless prevailed on appeal, and the result of the proceedings would have
been different, as in the case of this codefendant, thus subjecting this manifest
injustice subject to collateral attack pursuant to §2255, and the vindication of his
constitutional rights.
Zavala based his reasoning in the Supreme Court of the United States firm
ruling “that the Due Process Clause of the Fifth Amendment forbids the
Government's from suppressing evidence favorable to the accused where the
evidence is material to guilt or punishment. Brady v. Maryland, 373 U.S. 83
(1963).

See United States v. Flores-Rivera, 787 F.3d 1 (1st Cir. 2015)(Ordering

new trial due to Brady-Giglio violations). "Thus, the law makes it easier for
[habeas petitioners] to obtain a new trial where the government has engineered an
unfair trial by withholding material exculpatory or impeachment evidence." See
United States v. Joselyn, 206 F.3d 144, 153 (1st Cir. 2000). See also Conley v.
United States, 415 F.3d 183, 189 (1st Cir. 2005)(quoting United States v. Bagley,
10

473 U.S. 667, 683 (1985)); United States v. Agurs, 427 U.S. 97, 112 (1976). And
also United States v. Cunan, 152 F.3d 29, 34 (1st Cir. 799SJ(explaining a
petitioner may be entitled to a new trial under Brady without convincing the court
of the certainty of a different outcome). The Government's suppression of
impeachment evidence, therefore, warrant a new trial "where the evidence is highly
impeachable or when the witness' testimony is uncorroborated and essential to the
conviction." United States v. Martinez-Medina, 279 F.3d 105, 126 (1st Cir.
2002)(emphasis added). Gigliov. United States, 405 U.S. 150, 154-155
(1972)(requires a new trial wherever the failure to disclose material evidence
regarding the credibility of a given witness results in a violation of due process).
Based on the above mentioned ruling Zavala argued that the First Circuit
Court of Appeals ruling in United States v. Flores-Rivera, 787 F.3d 1 (1st Cir.
2015), setting aside the convictions of his co-defendants, and remanding the case
back for a new trial, due to Brady-Giglio violations that occurred during his
criminal and trial process, prior to him pleading guilty, clearly established the Fifth
Amendment constitutional violations he argued required the habeas relief he was
denied by the District Court and the issuance of a COA. “A plea obtained in
violation of due process of law, and in violation with the right to the effective
assistance of counsel,” it’s a plea, which clearly “substantiates the showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Tse v. United States, 290
li

F.3d 462, 465 (1st Cir. 2002), and which requires the issuance of COA. Miller-El
v. Cockrell, 537 U.S. 322, 336, 123 S.Ct. 1029, 1039, 154 L.Ed.2d 931 (2003).
B. THE POST SENTENCE RULE ALLOWING THE COLLATERAL
ATTACK ON UNCONSTITUTIONAL CONVICTIONS AND
SENTENCES PURUSANT TO §2255.
A motion filed pursuant to section 2255 is not a substitute for a direct
appeal. Foster v. Chatman, 136 S. Ct. 1737, 1758 (2016).

And when a § 2255

petitioner does not raise a claim on direct appeal, that claim is barred from judicial
review unless the petitioner can demonstrate both (1) cause for the procedural
default, and (2) actual prejudice resulting from the error asserted.

United States v.

Frady, 456 U.S. 152,167-68 (1982).
As to the aspects of prejudice, the Supreme Court has treated the
“materiality” requirement for Brady v. Maryland claims and the “prejudice”
requirement for ineffective assistance of counsel claims as synonymous. See Hill v.
Lockhart, 474 U.S. 52, 57, 106 S.Ct. 366, 88 L.Ed.2d 203 (1985); Strickland v.
Washington, 466 U.S. 668, 694, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984) (stating
that “the appropriate test for prejudice finds its roots in the test for materiality of
exculpatory information not disclosed to the defense by the prosecution....”); Ruiz
v. United States, 339 F.3d 39, 43 (1st Cir.2003) (“Brady [v. Maryland ] claims are
subject to the same prejudice requirement as ineffective-assistance claims,” citing
Strickland and Bagley ); Miller, 848 F.2d at 1321-22.
12

The government suppression of Brady-Giglio material during Zavala’s
pretrial and posttrial criminal proceedings established prejudice, since Zavala’s
trial counsel was deprived by the government actions to discharge her
constitutional duties own to Zavala under the due process and effective assistance
of counsel clauses secured under the Fifth and Sixth Amendment to the United
States Constitution.
As to the aspects of cause, the Supreme Court recognized in Coleman v.
Thompson, 501 U.S. 722,753 (1991):
“... “cause” under the cause and prejudice test must be something
external to the petitioner, something that cannot fairly be attributed to
him: “We think that the existence of cause for a procedural default
must ordinarily turn on whether the prisoner can show that some
objective factor external to the defense impeded counsel’s efforts to
comply with the State’s procedural rule”. 477 US at 488. For example,
“a showing that the factual or legal basis for a claim was not
reasonably available to counsel, ... or that ‘some interference by
officials’ .... Made compliance impracticable, would constitute cause
under this standard”. Ibid. See also id., at 492 (“Cause for a
procedural default on appeal ordinarily requires a showing of some
external impediment preventing counsel from constructing or raising
the claim.”)”

And that in Bousely v. US., 523 US. 614,618-619 (1998) the Supreme
Court granted habeas 2255 relief that was based on a guilty plea that was not
entered intelligently and knowingly. It held:
“A plea of guilty is constitutionally valid only to the extent it is
“voluntary” and “intelligent”. Brady v. U.S., 397 US 742, 748, 25
L.Ed.2d 747, 90 S.Ct. 1463 (1970). We have long held that a plea
13

does not qualify as intelligent unless a criminal defendant first
receives “real notice of the true nature of the charge against him, the
first and most universally recognized requirement of due process”.
Smith v. O’Grady, 312 US 329, 334, 85 L.Ed 859, 61 S.Ct. 572
(1941).”.. “a “plea of guilty entered by one fully aware of the direct
consequences” of the plea is voluntary in a constitutional sense
“unless induced by threats ..., misrepresentation..., or perhaps by
promises that are by their nature improper as having no proper
relationship to the prosecutor’s business.”

Although, Zavala pointed out in his COA that the First Circuit had set a
different standard of review in, Ferrara v. United States, 456 F.3d 278, 289 (1st
Cir. 2006): where the Court held that:
Under limited circumstances, the prosecution's failure to disclose
evidence may be sufficiently outrageous to constitute the sort of
impermissible conduct that is needed to ground a challenge to the
validity of a guilty plea1. See Bouthot, 878 F.2d at 1511 (stating that
a defendant could attack his plea under Brady v. United States by
showing that the prosecution's failure to provide information
constituted a “material omission tantamount to a misrepresentation”);
see also Matthew v. Johnson, 201 F.3d 353, 364 n. 15 (5th Cir.2000)
(suggesting that, “[e]ven if the nondisclosure is not a Brady [v.
Maryland] violation,” there may be situations in which the
prosecution's failure to disclose evidence makes it “impossible for [a
defendant] to enter a knowing and intelligent plea”). (Ibid 291)

A finding of impermissible conduct is a necessary but not a sufficient
condition for the success of an involuntariness argument. The
petitioner also must show “a reasonable probability that, but for [the
misconduct], he would not have pleaded guilty and would have
insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52, 59, 106
S.Ct. 366, 88 L.Ed.2d 203 (1985). For purposes of this standard, a
1 This Court already found the prosecution's failure to disclose evidence during this case trial process was
outrageous, as to requiring a new trial order. See United States v. Flores-Rivera, 787 F.3d 1 (1st Cir. 2015)
14

reasonable probability is a probability sufficient to undermine
confidence in a belief that the petitioner would have entered a plea.
See Miller v. Angliker, 848 F.2d 1312,1320 (2d Cir.1988). (Ibid 293294)

A court charged with determining the existence of a reasonable
probability that a defendant would have insisted on a trial in the
absence of government misconduct must take an objective approach.
See United States v. Walters, 269 F.3d 1207, 1215 (10th Cir.2001);
United States v. Avellino, 136 F.3d 249, 256 (2d Cir.1998). The
elementary question is whether a reasonable defendant standing in the
petitioner's shoes would likely have altered his decision to plead guilty
had the prosecution made a clean breast of the evidence in its
possession. See Miller, 848 F.2d at 1322. Because a multiplicity of
factors may influence a defendant's decision to enter a guilty plea, a
court attempting to answer this question must use a wide-angled lens.
See Brady v. United States 397 U.S. at 749, 90 S.Ct. 1463. Relevant
factors include, but are not limited to, (i) whether the sequestered
evidence would have detracted from the factual basis used to support
the plea, see Matthew, 201 F.3d at 365; (ii) whether the sequestered
evidence could have been used to impeach a witness whose credibility
may have been outcome-determinative, see Conley v. United States,
415 F.3d 183, 189 (1st Cir.2005); (iii) whether the sequestered
evidence was cumulative of other evidence already in the defendant's
possession, see id. at 192; (iv) whether the sequestered evidence
would have influenced counsel's recommendation as to the desirability
of accepting a particular plea bargain, see Hill, 474 U.S. at 59, 106
S.Ct. 366; and (v) whether the value of the sequestered evidence was
outweighed by the benefits of entering into the plea agreement, see
White v. United States, 858 F.2d 416, 424 (8th Cir.1988). (Ibid at
295)
In support of this argument Zavala submitted that the record in his case
established that the cause of external circumstances that prevented him from
raising the issue before the District Court and on direct appeal where clearly

15

justified in his 2255 Habeas Corpus and COA. For an elaborated discussion2 of
the issues Zavala argued in his 28 U.S.C. s 2255, the United States Response
argument, the District Court ruling, and Zavala’s COA argument. Please see
APPENDIX B MEMORANDUM OF LAW UNDER 28 U.S.C. 2255,
APPENDIX C MOTION SUPLEMENTING 2255 PETITION, APPENDIX D
GOVERNMENT’S OPPOSITION 28 U.S.C. 2255, APPENDIX E MOVANT’S
REPLY TO GOVERNMENT OPPOSITION, APPENDIX F DISTRICT COURT
DECISION AND OREDER, and APPENDIX G CERTIFICATE OF
APPEALABILITY.
Zavala also argued in his COA that the District Court also committed
constitutional error when it ruled that he had no constitutional right to receive
impeachment evidence prior to pleading guilty by relying in United States v. Ruiz,
536 U.S. 622 at 629 (2002), an issue which the First Circuit resolved in the
opposite. In Ferrara, supra, the First Circuit ruled that United States v. Ruiz, 536
US. 622, 122 S.Ct. 2450, 153 L.Ed.2d 586 (2002), d[id] not indicate that Ferrara
[w]as barred from litigating his Brady v. Maryland claim or from being provided
relief if he proves that claim. Rather, Ruiz supports this court's conclusions.
The First Circuit, went on and explained, that in Ruiz, supra, the Supreme

2 Zavala submits that he has omitted the entire discussion of his 2255 Petition and COA because he could not
accommodate the same in the limited 40 pages limit as per the Supreme Court rules and order that Zavala filed a
new brief in compliance Rule 33.2(b).
16

Court held:
on a direct appeal of a defendant's sentence that the constitution does
not prohibit the government from requiring a defendant to waive his
right to impeachment information in return for a “fast-track” plea
agreement that will result in a lower sentence. See 536 U.S. at 633,
122 S.Ct. 2450.
The Court was not addressing the government's constitutional duty to
provide a defendant with material information that tends to negate his
guilt. Indeed, the Court referenced the interest in “securing those
guilty pleas that are factually justified.” Id. at 631, 122 S.Ct. 2450. It
also noted that its enduring concern about the possibility that guilty
pleas might be tendered by, and accepted from, innocent individuals
was addressed by Ruiz's plea agreement.
More specifically, the Court wrote:
[T]he proposed plea agreement at issue here specifies that the
Government will provide “any information establishing the factual
innocence of the defendant [ ].” That fact, along with other guilty-plea
safeguards, see Fed. Rule Crim. Proc. 11, diminishes the force of
Ruiz's concern that, in the absence of impeachment information,
innocent individuals, accused of crimes, will plead guilty.
Id. Quoting Brady v. United States, 397 U.S. at 748, 90 S.Ct. 1463,
the Court reiterated that, “the Constitution insists, among other things,
that the defendant enter a guilty plea that is ‘voluntary’ and that the
defendant must make related waivers ‘knowing[ly], intelligent[ly],
[and] with sufficient awareness of the relevant circumstances and
likely consequences.’ ” Id. at 629, 122 S.Ct. 2450. It then explained
that “impeachment information is special in relation to the fairness of
a trial, not in respect to whether a plea is voluntary (‘knowing,’
‘intelligent,’ and ‘sufficiently] aware.’).” Id. at 629, 122 S.Ct. 2450
(emphasis omitted).
Therefore, Ruiz reemphasizes the importance of guilty pleas being
entered intelligently. It does not alter the Supreme Court's ruling in
Brady v. United States, 397 U.S. at 757, 90 S.Ct. 1463, that
misrepresentations or other impermissible conduct by the government
can undermine the intelligence of a plea. Nor does it erode the
17

reasoning of Miller, 848 F.2d at 1322, that the improper failure of the
government to disclose material information tending to negate guilt
actually renders unintelligent and invalid a guilty plea.
As many Circuits have recognized, in Brady v. United States, 397
U.S. at 757-58, 90 S.Ct. 1463, the Supreme Court authorized
collateral relief for cases in which there is proven government
misconduct that creates a reasonable probability that an innocent
individual, advised by competent counsel, has falsely pled guilty to
avert the risk of a wrongful conviction and a much longer sentence.

Lastly, Zavala argued in his COA that the government misrepresentations to
his trial counsel as to the suppressed Brady-Giglio material evidence also deprived
him of his constitutional his trial rights as secured under the Sixth Amendment
effective assistance of counsel, since the government misconduct cause trial
counsel to throw in the towel in the middle of the trial in exchange for a straight
guilty plea which resulted in prejudiced, of a 50 year sentence, when there was a
reasonable probability that if the government would had produce the suppressed
impeaching material, trial counsel would have taken a different course3, which
could have resulted in acquittal, or even in a sentence of 12 years, which was given
to the leader of the indictment of the case upon remand for a new trial.
Since at least 1984, the Supreme Court has treated the “materiality”

3 Petitioner submits, that within the numerous courses of action that trial counsel would have pursued if the
government would have complied with its constitutional trial duties imposed under Brady, trial counsel has affirmed
by way of Affidavit that she had multiple available trial strategies, and that there is a reasonable probability that the
outcome of the trial would have been different. See Motion Supplementing 2255 Petition Facts -Affirmation
Submitted by Attorney Maria H, Sandoval [16-cv-02762 Document 7], incorporated herein by reference.
18

requirement for Brady v. Maryland claims and the “prejudice” requirement for
ineffective assistance of counsel claims as synonymous. See Hill v. Lockhart, 474
U.S. 52, 57, 106 S.Ct. 366, 88 L.Ed.2d 203 (1985); Strickland v. Washington, 466
U.S. 668, 694, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984) (stating that “the appropriate
test for prejudice finds its roots in the test for materiality of exculpatory
information not disclosed to the defense by the prosecution....”); Ruiz v. United
States, 339 F.3d 39, 43 (1st Cir.2003) (“Brady [v. Maryland ] claims are subject to
the same prejudice requirement as ineffective-assistance claims,” citing Strickland
and Bagley ); Miller, 848 F.2d at 1321-22. To establish “materiality” or
“prejudice,” a petitioner must prove a “reasonable probability that... the result of
the proceeding would have been different.” Strickland, 466 U.S. at 694, 104 S.Ct.
2052; see Bagley, 473 U.S. at 682, 105 S.Ct. 3375; Ruiz v. United States, 339 F.3d
at 41. The Supreme Court held in 1985 that a “different result” includes a
“reasonable probability that [a defendant] would not have pleaded guilty and
would have insisted on going to trial4.” Hill, 474 U.S. at 59, 106 S.Ct. 366; Miller,
848 F.2d at 1322.
Therefore, it is clear that reasonable jurist from this Honorable Court would
find that the district court's assessment in dismissing Petitioner’s due process of
law constitutional claims, and the First Circuit denial of his COA are “debatable or
4 The fact that Petitioner commenced trial and entered a straight guilty plea at the third day of trial, is a fact that
establishes that Petitioner in fact was going to trial and was serious about exercising his trial by jury rights.
19

wrong,” Miller-El v. Cockrell, 537 U.S. 322, 337-38, 123 S.Ct. 1029, 154 L.Ed.2d
931 (2003) (quoting Slack v. *879 McDaniel, 529 U.S. 473,484, 120 S.Ct. 1595,
146 L.Ed.2d 542 (2000), and deserves the encouragement proceed further.
Furthermore, this Honorable Court should settle if the Fifth Amendment
protections extends to habeas corpus petitioner claims filed pursuant 28 U.S.C. s
2255 proceedings regardless if not brought first on direct appeal where the same
defendants who stood trial benefited from the government brady violations as long
as a criminal defendant had an available vehicle designed to correct the violation
and vindicate constitutional rights as embedded in the habeas corpus constitutional
clause and the equal application of the laws and justice to all under the
Constitution of the United States.

III.

WHETHER DISTRICT COURT’S DECISION TO DISMISS HABEAS
CORPUS PETITIONS SUA SPONTE AFTER REFERING PETITIONS
AND
TO MAGISTRATE JUDGES FOR 2255 PROCEEDINGS
REPORT AND RECOMMENDATIONS VIOLATES THE FEDERAL
MAGISTRATE ACT AND THE RULES GOVERNING 2255
PROCEEDINGS TO HAVE PARTIES CONTROVERTED FACTS AND
ISSUES BE HEARD AND RESOLVED THROUGH EVIDENTIARY
HEARINGS.

A. THE LAW.
Pursuant to 28 U.S.C. § 636(b)(1)(B), petitions for writs of habeas corpus
may be referred to a magistrate judge for proposed findings and recommendations.
20

28 U.S.C. § 636(b)(1)(B); See McCarthy v. Bronson, 500 U.S. 136, 140 (1991)
(concluding that § 636(b)(1)(B) permits reference to a magistrate judge for
“applications for habeas corpus relief pursuant to 28 U.S.C. §§ 2254 and 2255 and
actions for monetary or injunctive relief under 42 U.S.C. § 1983”); Dawson v.
Marshall, 561 F.3d 930, 932 (9th Cir. 2009) (stating that § 636(b)(1)(B) permits,
but does not require, a district judge to refer a case to a magistrate judge); United
States v. Reyna-Tapia, 328 F.3d 1114, 1118 (9th Cir. 2003) (en banc) (stating that
petitions for writs of habeas corpus “may be referred” to a magistrate judge for
evidentiary hearings and proposed findings and recommendations).
Furthermore, once a matter has been referred to a magistrate judge, the
statute that governs reports and recommendations states that the magistrate judge
shall “submit... proposed findings of fact and recommendations for the
disposition” of a referred matter, and that “the magistrate judge shall file his
proposed findings and recommendations ... with the court,” and that a copy of the
report and recommendation should “be mailed to all parties.” 28 U.S.C. §
636(b)(l)(B)-(C). Likewise, Rule 72(b)(1) of the Federal Rules of Civil Procedure
states that “[t]he magistrate judge must enter a recommended disposition,
including, if appropriate, proposed findings of fact.
Lastly, 28 U.S.C. § 636(b)(1)(C) sets forth a procedure by which any party
can object to the magistrate judge's findings and recommendations, and provides
21

that the district judge can “accept, reject, or modify, in whole or in part, the
findings or recommendations made by the magistrate judge.” 28 U.S.C. §
636(b)(1)(C); see also Thomas v. Arn, 474 U.S. 140, 148-55 (1985) (examining §
636(b)(1)(C)); Nevertheless, see Hinman v. McCarthy, 676 F.2d 343, 348 (9th
Cir. 1982) (stating that, pursuant to § 636(b)(1)(C), “the district judge retains the
power to make the final decision on an application for writ of habeas corpus”).
B.

The Facts.
The record in this case established that On October 4, 2016, Zavala filed

motion pursuant to Title 28 U.S.C. 2255 to vacate, set aside or correct sentence.
[16-cv-02762 Docket 1] On October 4, 2016 the Court referred the 2255 Petition
to Magistrate Judge, the case was assigned to the Honorable Magistrate Judge
Marcos E. Lopez for a Report and Recommendation. [16-cv-02762 Docket 2-3]
On November 22, 2016 Zavala filed Supplemental Motion to submit Affirmation
by trial attorney Maria H. Sandoval in support of Zavala’s 2255 Petition. [16-cv02762 Docket 7] On December 15, 2016 Zavala filed motion “Providing
Additional Evidence” in support of his correction of sentence issue argument. [16cv-02762 Docket 9] On March 1, 2017, the United States filed its Response in
Opposition as to Zavala’s 2255 application [16-cv-02762 Docket 16] On March 6,
2017 Zavala filed Motion for Leave to file Reply as to the United States Response
in Opposition Motion, and on April 5, 2017 Zavala filed his Reply to the United
22

States Response in Opposition Motion. [16-cv-02762 Docket 11-19] On March
25, 2020, the Court without holding an evidentiary hearing or waiting for the
Magistrate Judge Report and Recommendation issued Opinion and Order
dismissing Zavala’s 2255 Application with prejudice and entered the judgment
accordingly. [16-cv-02762 Docket 20-21]
C. Argument.
Zavala submitted in his COA that the District Court’s actions violated the
Federal Magistrate Act and the Rules Governing 2255 Proceedings.
In support of this arguments Zavala contended that once his 2255 habeas
petitions was referred to the magistrate judge, the magistrate judge had the
statutory duty to first comply the rules governing 2255 proceeding5, enforce the
rules governing 2255 proceedings, and he only had the sole power to decide the
proposed findings of fact and recommendations for the disposition without the
interruption of the Court. Furthermore, Zavala posited, that since he was an
adverse party, he had the statutory right to file objection to the magistrate judge's
findings and recommendations, and only then the district judge retained the power
to make a final decision as to Zavala’s 2255 motion, by either “accepting,
rejecting, or modifying, in whole or in part, the findings or recommendations made

5 Pursuant to Rule 10. Powers of a Magistrate Judge. A magistrate judge may perform the duties of a district judge
under these rules, as authorized by 28 U.S.C. § 636.
23

by the magistrate judge, and issuing an opinion and order, either favoring or
disfavoring Zavala’s constitutional claims.
It is Zavala’s position, before this Honorable Court that once federal judges
referred 2255 petitions to a Magistrate Judge, Congress have empowered the
Magistrates to preside over 2255 proceedings to its fullest extent, and federal
judges are powerless in retaining the case back until all the procedures governing
2255 proceedings are fully observed and the case is final, and subject to the
issuance of the Magistrate Judge Report and Recommendations for further
consideration of District Court ruling as to either request objections to the parties,
review the Magistrate Judges findings of fact and application of the law de novo,
or grant or deny the prisoner’s substantive constitutional claims.
Therefore, a COA should have been issued because the District Court
actions in this case violated Zavala’s procedural due process rights as secured
under the Habeas Corpus and the Rules Governing 2255 Proceedings.
According to the record, On October 4, 2016 the District Court referred the
2255 Petition to Magistrate Judge, and the case was assigned to the Honorable
Magistrate Judge Marcos E. Lopez for a Report and Recommendation. Three
years later, on March 25, 2020, the District Court acting sua sponte and without
allowing the Magistrate Judge to exercise its statutory powers in either holding an
evidentiary hearing or waiting for his Report and Recommendation, went an took
24

the 2255 motion back from the Magistrate Judge and without even informing the
parties that the Court was going to retain back its powers in handling to Zavalas
2255 proceedings, went and issued Opinion and Order dismissing Zavala’s 2255
petition with prejudice and entered the judgment accordingly, without even
observing the Habeas Corpus and the rules governing 2255 proceedings.
The District Court’s actions violated Zavala procedural due process rights as
secured under Fifth Amendment under the constitutional duties imposed under the
Habeas Corpus and the statutory duty imposed under the Rules Governing 2255
Proceedings.
Furthermore, let it be clear that the Federal Magistrate Act is a creature of
Congress and the Court are not free to suppress the Magistrate Judges powers to
perform duties of a district judge once granted by the Court itself. See Rule 10.
Powers of a Magistrate Judge, A magistrate judge may perform the duties of a
district judge under these rules, as authorized by 28 U.S.C. § 636.
It follows then, that once this power is given to the Magistrate Judge, and a
Habeas Corpus is assigned to him for appropriate legal proceedings the prisoner
subject to the controversy is statutorily expecting that the rules governing 2255
proceedings are observed and followed as to ensure that the rights conferred to him
by congress are enforced and implemented according to law. Withing rules the
following were not observed due to the District Court wrongful intervention with
25

the Magistrate Judge duties.
Zavala was not allowed to exercise many rights afforded to him under the
rules governing 225 proceedings. In example, right to seek leave and further
discovery and depositions once the Magistrate Judge decided to enter an order to
proceed with case. See Rules Governing § 2255 Proceedings, Rule 6, 28 U.S.C.A.
§ 2255 Rule 6. Discovery. The right to expand the record had the Magistrate Judge
ordered so. See Rule 7. Expanding the Record. And the right to hold an
evidentiary hearing since the 2255 motion was prematurely dismissed without
allowing Zavala to develop the record throughout the 2255 proceedings in
accordance with Rule 8. Evidentiary Hearing.
All which have resulted in the violation of Zavala procedural rights as
secured under the due process clause since the Habeas Corpus and the Rules
Governing 2255 Proceedings, are laws established by an act of Congress pursuant
to Article I of the United States Constitution implementing in the United States
Judicial System the statutory process that District Court must be observe when
handling a Prisoner’s 2255 Petition challenging the conviction and sentence he
contends was imposed in violation of the laws and constitution and the United
States.
This is an issue of national importance in the administration of criminal
justice and this Court is under the constitutional duty to interpret and say what the
26

law is under the Federal Magistrate Act, and decide whether the District Court’s
action, violated congress intentions under the Federal Magistrate Act law as
written.
CONCLUSION
WHEREFORE, based on all the aforementioned reasons, the panel who
denied Zavala’s COA failed to apply Supreme Court judicial precedents, and this
Honorable Court should reevaluate the denial of the COA entered in this case, by
the First Circuit, and reconsider by way of writ of certiorari the issues respectfully
submitted in this petition, accordingly.
The petition for a writ of certiorari should be GRANTED.
Respectfully submitted, on this the

., day of January, 2021.

I hereby certify under penalty of perjury pursuant 18 U.S.C. s 1746, that on
this same date, I placed the forgoing document in the Institution Mail Box to be
mailed to Supreme Court of the United States, 1 First Street, NE, Washington, DC
20543

Vr ~

^

ZAVALA MA&TI
RfeQ^O. 32031-069
FCIJESUP, Unit D-A
FEDERAL CORRECTIONAL INSTITUTION
2680 301 SOUTH
JESUP, GA 31599

27

